  U.S. ELECTION ASSISTANCE COMMISSION 

         OFFICE OF INSPECTOR GENERAL




              FINAL REPORT 




PURCHASE OF SHIRTS AND SWEATSHIRTS USING 

          APPROPRIATED FUNDS 





            EVALUATION REPORT NO. 

               I-EV-EAC-01-09 




                OCTOBER 2009
U.S. ELECTION ASSISTANCE COMMISSION

OFFICE OF INSPECTOR GENERAL

                                           OCTOBER 2009

                                           EVALUATION REPORT
                                           PURCHASE OF SHIRTS AND SWEATSHIRTS USING APPROPRIATED
                                           FUNDS

HIGHLIGHTS                                 RESULTS IN BRIEF

EVALUATION REPORT NO.                      Under the Government Employees’ Incentive Awards Act,
I-EV-EAC-01-09                             agencies have the authority to provide monetary and
                                           nonmonetary awards to its employees for acts and services
SUBJECT                                    related to their official employment and to incur necessary
                                           expenses in connection with the awards.
We evaluated the U.S. Election
Assistance Commission’s                    Using $6,976.50 of FY 2008 funds, the Commission purchased
(Commission) purchase of shirts and        458 shirts and zip-hooded sweatshirts (shirts) as awards to staff
zip-hooded sweatshirts (shirts) as an      scheduled to work an extended shift on Election Day and to
award to its employees using               foster improved morale among employees. The Commission
appropriated funds because of              distributed 195 shirts to 39 individuals (38 EAC employees and
concerns regarding the                     one contractor). Each person received a set of five shirts (three
appropriateness.                           short-sleeved polo shirts, one long-sleeved polo shirt, and one
                                           zip-hooded sweatshirt) with a weighted average cost1 of $81 per
Our evaluation objectives were to          set. The total cost of shirts distributed to employees and a
determine whether (1) the purchase of      contractor was $3,159. There are 263 shirts, with an estimated
the shirts complied with federal           value of $3,817.50, remaining in inventory.
requirements and other guidance, and
(2) the use of appropriated funds was      The Commission has policies and procedures that allow for
permissible.                               nonmonetary awards to recognize its employees. In addition,
                                           the purchase of shirts generally complied with simple
RECOMMENDATIONS AND                        acquisition procedures as outlined by the Federal Acquisition
COMMISSION RESPONSE                        Regulations. However, despite the fact that the purchase
                                           complied with the award and procurement provisions, it was
We made a number of                        excessive and created an appearance of misuse of federal funds.
recommendations based on our               We observed that the Commission should address procurement
observations to improve the                and award program issues concerning (1) the quantity of items
Commission’s incentive awards              purchased, (2) the quantity awarded, and (3) the distribution of
program and the use of funds to            shirts to a contractor.
purchase award items. The steps
taken by the Commission in response
to this report will strengthen its award
program.




                                           1
                                            Weighted average cost was used to account for differences in cost due to
                                           shirt size, type, and other related costs (digitizing, shipping and handling).
                      U.S. ELECTION ASSISTANCE COMMISSION
                               Office of Inspector General



                                                                                 October 1, 2009


TO:            T
               	 homas Wilkey
               Executive Director

FROM:          	Curtis Crider
               Inspector General

SUBJECT: 	 Final Report - Evaluation of the U.S. Election Assistance Commission’s Purchase
           of Shirts and Sweatshirts Using Appropriated Funds (Assignment No. I-EV-EAC-
           01-09)

        This memorandum transmits the report in connection with the evaluation of the U.S.
Election Assistance Commission’s (EAC) purchase of shirts and sweatshirts using Fiscal Year
2008 funds. Although, the Commission has policies and procedures that allow for an award of
nominal value to recognize its employees and the purchase of the 458 shirts generally complied
with simple acquisition procedures, the Commission’s purchase was excessive and created an
appearance of the misuse of federal funds. We observed that the Commission should address
procurement and awards program issues concerning (1) the quantity of items purchased, (2) the
number of shirts awarded, and (3) the appropriateness of the award recipient.

        In its August 25, 2009 response to the draft report (Appendix 1) the EAC indentified
steps that it was taking to strengthen its award program. In a supplemental response dated
September 30, 2009, (Appendix 2) the EAC provided its justification for providing the shirts to a
contractor. Based on the EAC’s response the OIG considers all of the recommendations closed.

The legislation as amended, creating the Office of Inspector General (5 U.S.C. § App. 3) requires
semiannual reporting to Congress on all inspection and evaluation reports issued, actions taken to
implement recommendations, and recommendations that have been implemented. Therefore, a
summary of this report will be included in our next semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.

cc: Chair, U.S. Election Assistance Commission
    Commissioner Davidson
    Commissioner Hillman




                  1225 New York Ave. NW – Suite 1100, Washington, DC 20005 
                         OIG Hotline (866) 552-0004  eacoig@eac.gov
                             TABLE OF CONTENTS 


Introduction                                                                 1

Objectives, Scope, and Methodology                                           2


Observations and Recommendations                                             3


Appendix 1 – Commission Response                                            13 


Appendix 2- Supplemental Response                                           17 


Appendix 2- Status of Recommendations                                       20 





               1225 New York Ave. NW – Suite 1100, Washington, DC 20005 
                      OIG Hotline (866) 552-0004  eacoig@eac.gov
                                       INTRODUCTION 


The U.S. Election Assistance Commission (EAC or Commission) was created by the
Help America Vote Act of 2002 (HAVA) to assist states2 with improving the
administration of federal elections and to provide funds to states to implement these
improvements. In fiscal year (FY) 2008, the Commission received three appropriations
of funds.

       $16.53 million for salaries and expenses, of which $3.25 million was for transfer
        to the National Institute of Standards and Technology, and $200,000 for a
        competitive grant program for mock elections;
       $115 million for distribution under the HAVA requirements payments program;
        and
       $10 million to support a competitive grant program for a pilot program for
        collecting certain data related to the federal general election.

Under the Government Employees’ Incentive Awards Act (GEIAA), an agency has the
authority to provide monetary and nonmonetary awards to its employees—limited to
federal employees—for acts or services related to their official employment. In addition,
an agency can incur necessary expenses in connection with an incentive award. In
making purchases for its award programs, the Commission is required to procure supplies
in such quantities that will result in the total cost and unit cost most advantageous to the
government, where practicable, and does not exceed the quantity reasonably expected to
be required. (Federal Acquisition Regulations §§ 7.202 and 13.101)

The Commission used $6,976.503 in FY 2008 funds to purchase 458 shirts and zip-
hooded sweatshirts (shirts) embroidered with “U.S. Election Assistance Commission” as
awards to staff scheduled to work an extended shift on Election Day and to foster
improved morale among all employees.

       378 short-sleeved polo shirts in three colors (navy, red, and tan)
       40 long-sleeved polo shirts
       40 zip-hooded sweatshirts

On or about November 3, 2008, the Commission distributed 195 shirts to 38 employees
and one contractor (a total of 39 persons). Each person received a set of five shirts (three
short-sleeved polo shirts, one long-sleeved polo shirt, and one zip-hooded sweatshirt).
The weighted average cost of shirts given to each person was $81,4 for a total of $3,159.
There are 263 shirts, with an estimated value of $3,817.50, remaining in inventory.




2
  “States” means the 50 states, the District of Columbia, Guam, Puerto Rico, American Samoa, and the U.S. 

Virgin Islands. 

3
  The $6,976.50 includes a $40 digitizing fee and a $25 shipping and handling fee. 

4
  See footnote 1. 



                                                    1

             OBJECTIVES, SCOPE, AND METHODOLOGY 


This is the first Office of Inspector General evaluation relating to the U.S. Election
Assistance Commission’s (Commission or EAC) awards program. The objectives of the
evaluation were to determine whether (1) the purchase of the 458 shirts by the
Commission complied with federal requirements and other guidance, and (2) the use of
appropriated funds was permissible. To achieve our objectives we interviewed
Commission management and staff. We requested and examined documentation related
to the purchase and award of the shirts. We reviewed applicable federal requirements
and other guidance, including the GEIAA and its regulations, the Federal Acquisition
Regulations (FAR), and relevant Comptroller General opinions. We also reviewed the
EAC’s policies and procedures that affected the purchase and award.

We conducted our evaluation from February through April 2009 under the authority of
the Inspector General Act of 1978, as amended. The evaluation was conducted in
accordance with the “Quality Standards for Inspections,” prescribed by the President’s
Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency.




                                           2

                 OBSERVATIONS AND RECOMMENDATIONS 


The U.S. Election Assistance Commission (Commission or EAC) purchased 458 shirts
and zip-hooded sweatshirts (shirts) for $6,976.50. The Commission justified the
purchase as an award to EAC employees who worked extended or irregular hours on
Election Day. We considered two questions during our evaluation: (1) did the EAC use
federal funds consistent with federal statutes, regulations and guidelines; and (2) did the
EAC’s purchase create an appearance of the improper use of federal funds. We found
that the EAC’s purchase was consistent with the provisions for making nonmonetary,
incentive awards to federal employees and that the purchase was made in conformance
with the FAR. However, we determined that the EAC’s purchase and award did create
the appearance of the improper use of federal funds in that the quantity purchased and
awarded to employees and a contractor was excessive.

THE COMMISSION’S DISTRIBUTION OF SHIRTS WAS AN AWARD UNDER THE GEIAA

The Commission offered as justification for its purchase of 458 shirts that the purchase
was made in order to provide employees who worked an extended shift on Election Day
with an award for that activity. We tested the justification and found that the shirts could
be considered an award under the GEIAA.

Generally speaking, an agency is not permitted to purchase clothing items for its
employees. The Government Accountability Office (GAO) considers clothing to be an
employee’s personal expense and has stated that, “every employee of the government is
required to present himself for duty properly attired according to the requirements of his
position.”5 There are several exceptions to this rule. First, an agency may have statutory
authorization for the purchase of clothing items. There are three major statutes that
permit this type of purchase: 5 U.S.C. § 7903 (Administrative Expenses Act), 5 U.S.C. §
5901 (Federal Employees Uniform Act), and 29 U.S.C. § 668 (Occupational Safety and
Health Act). Second, if the piece of clothing is an “out-of-the-ordinary item,” it may be
purchased by the agency if it meets a two-part test. Third, the GAO has permitted
purchases of clothing as employee awards under the GEIAA.

The GEIAA gives specific statutory authority for agencies to use appropriations for the
purposes of providing monetary and nonmonetary awards to employees whose actions
improve government operation, efficiency or economy.

          The head of an agency may pay a cash award to, and incur necessary
          expense for the honorary recognition of, an employee who—
          (1) by his suggestion, invention, superior accomplishment, or other
              personal effort contributes to the efficiency, economy, or other
              improvement of Government operations or achieves a significant
              reduction in paperwork; or
          (2) performs a special act or service in the public interest in connection
              with or related to his official employment.



5
    63 Comp. Gen. 245, 246 (1984)


                                                3

                  OBSERVATIONS AND RECOMMENDATIONS 


5 U.S.C. § 4503.

The authority to provide incentive awards is not unlimited, however. Incentive awards
are limited to employees of an agency. Id.; 5 U.S.C. § 4501. Awards cannot be issued to
contractors and other non-employees.

Pursuant to regulations promulgated by the Office of Personnel Management (OPM), the
award must recognize individual or group achievement that contributes to meeting the
organization’s goals or improving its efficiency, effectiveness, and economy. 5 C.F.R. §
451.102. The basis of such award can be:

          (1) A suggestion, invention, superior accomplishment, productivity gain,
              or other personal effort that contributes to the efficiency, economy, or
              other improvement of Government operations or achieves a significant
              reduction in paperwork;
          (2) A special act or service in the public interest in connection with or
              related to official employment; or
          (3) Performance as reflected in the employee’s most recent rating of record.

5 C.F.R. § 451.104(a).

The award must be distributed in accordance with an agency program which provides for
documenting the justification for awards that are not based on a rating of record. 5
C.F.R. § 451.103.

GAO has rendered many opinions on the propriety of issuing incentive awards to
employees. Awards are assessed under the necessary expense doctrine. In addition to the
justification by the agency, GAO frequently considers the opinion of OPM in making its
determination on the use of federal funds for incentive awards. Decisions are based on
the facts of each of the cases presented to GAO.

We reviewed the EAC policies and procedures concerning nonmonetary awards along
with the statutory and budgetary authorizations available to EAC. We found that the
EAC has no specific statutory authority to purchase clothing for its employees nor do the
three major statutes (5 U.S.C. § 7903, 5 U.S.C. § 5901, and 29 U.S.C. § 668) apply.
Further, the shirts are not deemed an “out-of-ordinary item,” and therefore, the two-part
test for purchase of clothing does not apply.

We found that the EAC does have a policy and procedure in place for making
nonmonetary, incentive awards to its employees. That policy generally complies with the
statutory requirements of the GEIAA and the regulations promulgated by the OPM
concerning incentive awards. See Observations 2 and 3 for needed changes to the EAC
policy. We found that GAO, although not expressly, has held that the issuance of awards
to a group of employees or even all employees in a division is permitted by the GEIAA.6
Further, the GAO has allowed the purchase and distribution of clothing items under the
6
    B-270327, Defense Reutilization and Marketing Services Award Ceremonies (March 12, 1997)


                                                   4

               OBSERVATIONS AND RECOMMENDATIONS 


GEIAA.7 Thus, we concluded that the justification provided by the EAC, that shirts were
provided to most EAC employees as an award for working extra or extended hours on
Election Day, was a permitted nonmonetary award to a group of employees under the
GEIAA.

EAC’S USED FAR SIMPLIFIED ACQUISITION PROVISIONS

The EAC used the provisions of the FAR for simplified acquisitions to purchase the shirts
in question.8 The purchase was for a total of $6,976.50, which did not exceed the
simplified acquisition threshold. The EAC contract file contained sufficient
documentation of the procedure used to acquire the shirts.

EAC’S PURCHASE WAS EXCESSIVE IN TERMS OF THE QUANTITY PURCHASED, QUANTITY
AWARDED, AND PERSONS TO WHOM THE SHIRTS WERE DISTRIBUTED

As a part of our evaluation, we considered whether EAC’s purchase9 and distribution of
shirts was reasonable and supported by its justification. We found that the number of
shirts purchased and awarded–to include the number of shirts remaining in inventory—
was excessive. In addition, we determined that the EAC inappropriately distributed a set
of shirts to a person who is not an EAC employee.

The observations below detail our evaluation results, observations, and recommendations
for the improvement of EAC’s process for making awards under its incentive awards
program.



OBSERVATION 1 – QUANTITY OF ITEMS PURCHASED

The Commission lacked sufficient justification for the need to purchase 458 shirts. EAC
spent $6,976.50 for shirts to be distributed to staff scheduled to work an extended shift on
Election Day and to foster improved morale among all employees. Of the 458 shirts
purchased, the Commission distributed only 195 shirts to 38 employees and a contractor
(a total of 39 persons). There are 263 shirts remaining in inventory with an estimated
value of $3,817.50.

                 QUANTITY AND JUSTIFICATION

                 To establish the quantity of shirts to order, Commission employees
                 obtained shirt sizes from about 34 staff, including one contractor. One
                 employee and the Office of Inspector General did not provide shirts sizes.
                 The contracting officer received a written request from the chief operating
                 officer to order two short-sleeved shirts per employee, and 24 extras
7
  B-243025, Federal Aviation Administration – Incentive Awards Program – Presentation of Jackets (May

2, 1991)

8
  FAR, Part 13.

9
  Includes the quantity of shirts purchased.



                                                  5

               OBSERVATIONS AND RECOMMENDATIONS 


                 (varied by size), for a total of 90 shirts. Notations made to the instructions
                 adjusted the number of shirts per employee to three, resulting in 126 shirts.

                                          Short-Sleeved Polo Shirts

                                         Staff    Extras      Quantity
                           SM         7     x3      +4           25
                           MED        15 x 3        +4           49
                           LG         2     x3      +8           10
                           XL         5     x3      +4           19
                           2XL        4     x3      +3           16
                           3XL         1    x3      +1            7
                                      34 102         24          126

                 The contracting officer ordered 378 short-sleeved shirts or 126 in each
                 color (navy, red, and tan) from the selected vendor. The procurement file
                 did not contain justification for the need to increase the number of shirts
                 for each employee to three or for tripling the order quantity. The 126
                 shirts alone would have provided a short-sleeved shirt in each color for the
                 34 staff that provided shirt sizes, with 24 extra to accommodate size
                 exchanges or staff that did not provide a shirt size prior to order
                 placement.

                 In addition to the 378 short-sleeved shirts, the order included 40 long-
                 sleeved polo shirts and 40 zip-hooded sweatshirts. The chief operating
                 officer’s request did not contain instructions to order nor did the purchase
                 file contain justification for the need to purchase the long-sleeved shirts
                 and sweatshirts for each employee. Notations made to the instructions,
                 along with notations on a separate sheet, indicated the order quantities.

                 The EAC explained that the quantity ordered was based on what could be
                 purchased for under $100, the amount in place for a nonmonetary token
                 award.10 When asked about the remaining inventory, the EAC explained
                 that they are for distribution to new employees as an incentive, to others
                 working for the Commission (e.g., contractors), and to promote the
                 Commission at engagements (e.g., conferences, workshops). Neither the
                 executive director’s authorization for the purchase nor the written request
                 from the chief operating officer for order quantities justified the need for
                 an inventory of shirts.




10
  The Commission’s established policies and procedures allow for an award of nominal value (in
increments of $50, with a maximum amount at any one time of $150. The Commission’s pending
employee recognition policy limits the expenditure for nonmonetary awards to no more than $250 on any
one item.


                                                  6

                OBSERVATIONS AND RECOMMENDATIONS 


                  CRITERIA

                  In making purchases, agencies are permitted to buy a quantity reasonably
                  expected to be required by the agency (FAR §§ 7.202 and 13.101) and for
                  which a bona fide need can be established for the fiscal year in which the
                  items are purchased. 11

                  CONCLUSION

                  The 458 shirts purchased using appropriated funds by the Commission for
                  staff scheduled to work an extended shift on Election Day and to foster
                  improved morale among all employees lacked sufficient justification. The
                  documents contained in the procurement file did not support the purchase
                  of 458 shirts. Furthermore, there was no justifying documentation for an
                  inventory of 263 shirts. Though it is permissible to maintain an inventory
                  of items for award purposes, it is not permissible to use the inventory as an
                  incentive award to new employees or contractors working for the
                  Commission. Without a clearly established need or requirement, the
                  purchase of 458 shirts creates a perception of waste, that federal funds
                  have been expended in a manner that does not further the mission and
                  goals of the Commission.

                  The Commission should exercise due care in selecting and procuring
                  appropriate items for nonmonetary awards and the quantity thereof.

                  RECOMMENDATIONS

                  We recommend that the U.S. Election Assistance Commission:

                  1.	 Ensure justifications for the purchase of items relating to the awards
                      program are supported and documented.

                  2.	 Ensure the purchase of items for nonmonetary awards is reasonably
                      necessary to carry out an authorized function or will contribute
                      materially to the effective accomplishment of that function.

11
   The appropriate use of federal funds depends on: (1) whether the purpose of the obligation or
expenditure is authorized; (2) whether the obligation occurs within the time limits applicable to the
appropriation; and (3) whether the agency has sufficient funds to satisfy the obligation. The second
element, timing of the obligation, depends upon the agency’s ability to establish a “bona fide need” for the
good or service. The “bona fide needs rule” is a fundamental principle of appropriations law. “A fiscal
year appropriation may be obligated only to meet a legitimate, or bona fide, need arising in, or in some
cases arising prior to but continuing to exist in, the fiscal year for which the appropriation was made.”
GAO-04-261SP Appropriations Law, Vol. 1, p. 5-11. When assessing “bona fide need,” GAO has
recognized the need to maintain a certain inventory of goods. Thus, an agency is not prevented from
“…maintaining a legitimate inventory at reasonable and historical levels, the ‘need’ being to maintain the
inventory level so as to avoid disruption of operations. The problem arises when the inventory crosses the
line from reasonable to excessive.” GAO-04-261SP Appropriations Law, Vol. 1, p. 5-13.


                                                     7

                   OBSERVATIONS AND RECOMMENDATIONS 


                       3.	 Implement a quantity check of items prior to placing an order to avoid
                           the purchase of excess items.

                       4.	 Establish limits to the quantity of items that can be retained in
                           inventory for award purposes.


EAC’s Response

The EAC generally concurs with Recommendations 1, 3 and 4. The EAC will ensure
that justifications for the purchase of future awards are supported and documented and
that a quantity check will be performed prior to the order being placed.

OIG’s Response

The actions taken by the EAC are consistent with the intent of the recommendations. No
further response to the OIG is required for these recommendations.



OBSERVATION 2 – QUANTITY OF SHIRTS AWARDED

On or about November 3, 2008, 38 employees and a contractor (a total of 39 persons)
received a set of five shirts—three short-sleeved polo shirts, a long-sleeved polo shirt,
and a zip-hooded sweatshirt. The weighted average cost per set of five shirts was $81.12
The total cost of shirts actually distributed was $3,159. A nonmonetary award of five
shirts to each employee and a contractor is excessive and creates the appearance that
federal funds were misused. Furthermore, the fact that the award was distributed prior to
the activity (working on Election Day) to be rewarded is inconsistent with the OPM
regulations governing incentive awards.

                       DETERMINATION AND APPROPRIATENESS

                       The Commission’s established policies and procedures allow for an award
                       of a nominal value (in increments of $50, with a maximum amount at any
                       one time of $150) recognizing employees for a one-time, short-term effort
                       that results in service of exceptionally high quality or quantity. The
                       Commission’s pending employee recognition program specifically
                       addresses nonmonetary extra effort awards, for use in recognizing an
                       employee or private citizen for a specific outstanding accomplishment.
                       This nonmonetary award can take the form of a memento, such as a token
                       item, or an honorable mention in an employee newsletter. The
                       Commission limits the expenditure for nonmonetary awards to no more
                       than $250 on any one item, reserving the higher amounts for high-level
                       honorary awards or major accomplishments.

12
     See footnote 1.


                                                     8

                OBSERVATIONS AND RECOMMENDATIONS 



                 According to the EAC, the quantity of shirts ordered for the nonmonetary
                 award was based on what the EAC could purchase for under $100. Cost
                 estimates were used to determine the quantity to order per person. There
                 was no additional justification for the purchase of multiple shirts to reward
                 employees. Justifications for purchasing multiple shirts as an award to
                 Commission staff and a contractor were inadequate.

                 Further, the purpose of the shirts—a nonmonetary award—was not
                 presented at the time the shirt sizes were obtained or at the time the shirts
                 were distributed to the 39 recipients. The recipients were surprised to
                 receive a set of five shirts as opposed to one shirt.

                 CRITERIA

                 Under the GEIAA, an agency has the authority to use appropriations for
                 the purpose of providing monetary and nonmonetary awards to its
                 employees for acts or services related to their official employment. An
                 award to a federal employee can take many forms, for example, an
                 informal recognition or nonmonetary award. An agency can grant the
                 award to a federal employee, as an individual or member of a group.
                 However, an employee cannot receive an award prospectively, that is
                 before the act or service is performed. An agency is required to distribute
                 the award in accordance with its program and to document the justification
                 for awards that are not based on a rating of record.

                 GAO opinions on the use of federal funds for purposes of giving
                 incentive-based awards to employees approve of the use of nonmonetary
                 awards for individuals and groups. However, the facts of the opinions do
                 not support giving multiple items to the employee and have not considered
                 nonmonetary awards valued at more than $50 each.13

                 CONCLUSION

                 The award of five shirts to each employee and a contractor is excessive
                 and creates an appearance issue with the use of federal funds by the
                 Commission for the otherwise permissible purpose of awarding employee
                 behavior. The only support offered by the EAC for giving multiple shirts

13
  See B-243025, Federal Aviation Administration – Incentive Awards Program – Presentation of Jackets
(May 2, 1991); B-160464, Ruth L. Jerideau, United States Department of Agriculture, February 9, 1967; B-
184306, Use of U.S. Army Criminal Investigation Command (USACIC) appropriate funds for purchase of
marble paperweights and walnut plaques; B-271511, National Security Agency – Availability of
Appropriations To Purchase Food as a Nonmonetary Award Under the Government Employees Incentive
Award Act (March 4, 1997); B-227559, Awards – Telephones – Nonuse of Sick Leave (March 23, 1988);
B-256399, (June 27, 1994); B-270327, Defense Reutilization and Marketing Services Award Ceremonies
(March 12, 1997).



                                                   9

             OBSERVATIONS AND RECOMMENDATIONS 


              to each employee was to give them something valued under $100. There
              was no explanation, in accordance with the Commission’s existing
              policies to justify this level of award to each of the employees. An agency
              should not grant an award based on the quantity that can be purchased for
              a given dollar amount. Even though an item is inexpensive, it does not
              mean that it is appropriate.

              An award may not be presented in advance or in anticipation of a
              contribution that has yet to occur, such as scheduling to work extended
              hours. Distribution of the shirts before Election Day creates the
              appearance that the shirts were a gift and not an award.

              RECOMMENDATIONS

              We recommend that the U.S. Election Assistance Commission:

              1.	 Consider the reasonableness and appropriateness of a nonmonetary
                  award before making it. Determine whether the item being awarded
                  would cause embarrassment to the Commission if made public or
                  whether it creates an appearance issue with the use of federal funds.

              2.	 Ensure procurement and award documentation clearly supports the
                  justification for the item—the quantity and value thereof—being
                  granted as a nonmonetary award.

              3.	 Ensure awards are granted for efforts expended or results achieved,
                  and not presented in advance or in anticipation of a contribution that
                  has yet to occur.

              4.	 Revise the pending policy on incentive awards to require distribution
                  of awards only after the notable action.

              5.	 Inform employees that they are being awarded and what efforts
                  expended or results achieved as an individual, or member of a group
                  initiated the award.

EAC’s Response

In its response the EAC indicated that it considered the reasonableness and
appropriateness of the monetary award before making it. The EAC concluded that the
shirts were appropriate to recognize the employees with a nonmonetary award. The
response also indicated that “[t]he notion that the shirts would cause any level of
embarrassment to the Commission is unfounded.” The response further stated that “the
Commission’s incentive award program is designed to recognize past performance and to
encourage exemplary performance by the staff.”




                                           10 

             OBSERVATIONS AND RECOMMENDATIONS 


OIG’s Response

The actions taken by the EAC are consistent with the intent of the recommendations. No
further response to the OIG is required for these recommendations. However, the EAC
should be cognizant of the appearance of such employee awards to the general public and
to Congress. The OIG believes that awarding 5 shirts to each employee is excessive. An
opinion apparently shared by at least one member of the EAC’s oversight committee in
the U.S. House of Representatives. The Member offered an amendment to the EAC’s FY
2010 appropriation to reduce the appropriation by $6,951. The explanation of the
amendment stated that it ”[w]ould reduce the amount appropriated for salaries and
expenses of the Election Assistance Commission by $6,951, the amount used to purchase
t-shirts and sweatshirts for agency employees.”

The EAC response stated that the “award program is designed to recognize past
performance and to encourage exemplary performance by the staff.” However, the
justification offered by the EAC indicated that the awards were made in order to
recognize employees who worked an extended shift on Election Day. The shirts were
distributed on or about November 3, 2008, prior to Election Day. If the shirts were given
for past performance, the award justification should clearly identify what past
performance was being awarded.




OBSERVATION 3 – APPROPRIATENESS OF THE AWARD RECIPIENT

The Commission inappropriately awarded a set of five shirts as a nonmonetary award to a
contractor. As a result, the Commission is susceptible to claims of unfair advantage
when appropriated funds not considered in the competitive process are used to purchase
an award for contract personnel. Further, the Commission’s pending award policies and
procedures permit nonmonetary awards to private citizens. Such policy is not consistent
with the GEIAA or its implementing regulations.

              NONMONETARY AWARD

              A contractor received a set of five shirts from the Commission on or about
              November 3, 2008. The contractor was scheduled to work extended hours
              on Election Day. A Commission employee asked for the contractor’s shirt
              size. The purpose of the shirts—a nonmonetary award—was not disclosed
              at the time the contractor’s shirt size was obtained or at the time the shirts
              were delivered. Further, the contractor was surprised to receive five shirts
              as opposed to one shirt.




                                            11 

             OBSERVATIONS AND RECOMMENDATIONS 


               CRITERIA

               Under GEIAA, an agency is permitted to provide monetary and
               nonmonetary awards to its employees; however, the Act limits the awards
               to federal employees. The term “federal employees” does not include
               contractor personnel or private citizens. Further, there is no statutory
               authority for spending appropriated funds on awards—whether monetary
               or nonmonetary—for contractor personnel.

               CONCLUSION

               The Commission inappropriately awarded a contractor with a set of five
               shirts. Further, the Commission’s pending award policies and procedures
               are inconsistent with the GEIAA and OPM regulations in that they allow
               awards to private citizens and contractors.

               RECOMMENDATIONS

               We recommend that the U.S. Election Assistance Commission:

               1.	 Seek payment for the shirts from the contractor or the employee(s)
                   responsible for the purchase and award.

               2.	 Amend its awards policies and procedures to comply with federal
                   requirements by prohibiting awards to contractor personnel or private
                   citizens. Advise Commission management and staff of the amendment
                   to ensure awareness and compliance.

EAC’s Response

In its response, the EAC offered a new justification for giving shirts as an award to a
contractor, stating that the contractor was a former Federal employee and that the award
was for past service as a Federal employee. In its supplemental response dated September
30, 2009, the EAC determined that recognizing the former federal employee/contractor with
a non-monetary award was appropriate. The response indicated that former
employee/contractor was eligible for a nonmonetary award based on the fact that the
contributions made by the individual as a federal government employee were substantial and
benefited the agency’s overall mission.

OIG’s Response

No further response to the OIG is required for these recommendations.




                                           12 

                                                                             Appendix 1




                            u.s.    ELECTION ASSISTANCE COMMISSION
                            1225 New York Ave. NW - Suite 1100
                            Washington, DC 20005




TO:                 Curtis Crider
  ~ ... '   ' ''~
                    Inspector General
  \,
FR~-)Thomas A Wilkey
        C           Executive Director

DATE: 	             August 25,2009

SUBJECT: 	 Management Response to Draft Report-Evaluation of the U.S.
           Election Assistance Commission's Purchase of Shirts and
           Sweatshirts Using Appropriated Funds (Assignment No. 1-EV-EAC­
           01-09)


In a Final Report entitled "Purchase of Shirts and Sweatshirts using
Appropriated Funds" the Inspector General (IG) finds that " ... The Commission
has policies and procedures that allow for nonmonetary awards to recognize
employees ... that the shirts could be considered a nonmonetary award under the
GEIAA ... that the purchase was made in conformance with the FAR. .. and that
the justification provided by the EAC, that shirts were provided to most EAC
employees as an award for working extra or extended hours on Election Day, was
a permitted nonmonetary award to a group of employees under the GEIAA.

These conclusions follow the IG's April 1, 2009 testimony before the House
Committee on House Administration, Elections Subcommittee, that he had not
found any illegal use or abuse of federal funds at the EAC. The IG's findings are
generally consistent with the EAC's position on the purchase of the items.

The report, however, maintains "... that the number of shirts purchased and
awarded, to include the number of shirts remaining in inventory, was excessive.
Management respectfully disagrees with this finding and states in response to
this allegation that it is their position that the purchase and distribution of the
shirts was not excessive and was provided to the staff as a means of recognition,
to help improve morale among all employees, and in light of the following.




                                                13
                                                                             Appendix 1




First it should be noted that the remaining inventory of shirts will be used for
future nonmonetary awards. The EAC employs student interns, technical
reviewers, as well as other part-time/temporary employees on a regular basis.
The shirts are used as a nonmonetary award in recognition for their work while
employed with the EAC. These individuals are generally hired by the EAC to
work on very important short term projects. Given the time span that many of
the interns are working with the agency and the short turn around that their
projects are assigned and due for completion, the remaining inventory of shirts
are a way of awarding them for their accomplishments, if so deserved.

Second, when the distribution of the shirts are considered in the context of the
amount of performance awards, monetary and nonmonetary, given to employees
of the EAC over the last four years, it was not materially excessive. As the IG
points out, the sets of shirts distributed had a value of $81 per set. This was part
of a total budget for performance awards for FY 2008 that $$82,956 or 2.3% of
the total salary and expense budget. In 2005 - 2007 less than $5,000 was
expended on performance awards, which is considerably below the amount spent
in general in the federal government. EAC employees are exceptionally hard­
working and have worked vigorously over the last few years to put the
Commission on track to being a high performing, effective federal entity.
Management believes that the award of the shirts was an appropriate means of
acknowledgment for the performance of the agency staff in appreciation and
recognition of their performance in preparation for the major 2008 Presidential
election cycle, which began well before Election Day. The election cycle
commences months before the date of the election. Efforts that lead to any
successful election are materialized well in advance. While maybe not effectively
communicated during the IG's investigation, the shirts were awarded, not only
for their expected election day performance, but also in recognition of and with
gratitude for the past efforts that the staff had consistently, readily, and eagerly
exhibited leading up to the November 4th election.


OBSERVATION 1 Quantity of Shirts Purchased

Response:

With regard to the specific recommendations under Observation 1 made by the
IG, the Commission generally concurs with the conclusions made in
Recommendations 1 and 3. To this extent the Commission will continue to ensure
that justifications for purchases of awards are supported and documented, and
that a quantity check of items prior to an order being placed is conducted to avoid
the appearance of excess purchases.

Recommendation 2 suggest that the Commission"... ensure the purchase of
nonmonetary awards is reasonably necessary to carry out an authorized


                                        14
     Appendix 1




15
     Appendix 1




16
                                                                                    Appendix 2




                          U. S. ELECTION ASSISTANCE COMMISSION 

                              OFFICE OF THE EXECUTIVE DIRECTOR

                               1225 New York Avenue, NW, Suite 1100 

                                      Washington, DC. 20005 



TO:    	      Curtis Crider
              Inspector General

FROM: 	       Thomas A. Wilkey
              Executive Director

DATE:	        September 30, 2009

SUBJECT: 	 Management Response to Observation 3: Appropriateness of the Award
           Recipient from Draft Report - Evaluation of the U.S. Election Assistance
           Commission’s Purchase of Shirts and Sweatshirts Using Appropriated Funds
           (Assignment No. 1-EV-EAC-01-09).


On July 29, 2009, the Inspector General (IG) transmitted to Management a report in connection
with the evaluation of the U.S. Election Assistance Commission’s (EAC) purchase of shirts and
sweatshirts using appropriated funds. Management provided a response to the report on August
25, 2009. In its response, Management indicated that further review would be given with respect
to the finding in Observation 3 of the IG’s report and that a final determination of the issue
would be made no later than the end of Q4, FY’09. This provides Management’s final review
and response of the issues raised in Observation 3.

In the evaluation report the IG found that “…the Commission has inappropriately awarded a
contractor with a set of five shirts”. Based on this finding the IG recommended that the EAC
“Seek payment for the shirts from the contractor or the employee(s) responsible for the purchase
award” (approx. $81.00). The report, citing a provision in the Government Employees
Incentives Award Act (GEIAA), concluded that “an agency is permitted to provide monetary and
nonmonetary awards to its employees; however the Act limits the awards to federal employees.
Based on the IG’s findings the term “federal employees” does not include contractor personnel
or private citizens. Further, there is no statutory authority for spending appropriated funds on
awards-- whether monetary or nonmonetary – for contractor personnel, according to the
conclusions reached in the report.

Management respectfully disagrees with this finding for the following reasons.
5 CFR Part III; Subpart C, 5 USC Sec. 4505 provides that an agency may pay or grant an award
under this subchapter notwithstanding the …separation from the service of the employee
concerned, if the … superior accomplishment, other personal effort, or special act…for which
the award is proposed was made or performed while the employee was in the employ of the
Government.




                                              17
                                                                                                       Appendix 2



During the period of August 2005 until April 2007, the contract employee in question, was a
former federal employee, who was detailed to the EAC and served in the capacity of Inspector
General. “The Memorandum of Understanding” between EAC, and the Department of Interior
Office of Inspector General dated September, 8, 2005 authorized said individual to receive
“salary, benefits, bonuses, awards, and related personnel cost associated with the work
performed while employed at EAC.”

At the onset of the individuals’ detail assignment as the Inspector General, the EAC was faced
with many challenges as a newly formed Federal Agency. The former employee provided
substantive input and guidance to the agency. Given the many years of federal government
experience that the individual possessed, the advice and recommendations that the former
employee provided to the EAC management was essential.

The individual retired from federal employment in April 2007 and did not receive any
recognition award for the service that was performed and the substantive contributions that were
made to the agency.

Beginning in June 2007 through July 2009 the former employee continued to serve the EAC as a
contract employee. At the time of the former employee’s transition to a contract status and,
based on the EAC’s recollection, at the verbal request of the EAC’s newly appointed IG, the
individual received an agency issued laptop, blackberry, and building key card. The former
employee/contractor, also at the request of the IG’s office, was provided ongoing access to the
shared drive, (except the IG folder) and maintained the same EAC email address that was
assigned to the individual while employed as a federal government employee. Although the
employee had officially retired and was serving in a “contract” capacity, the employee’s status,
with respect to continued services and access to information, was never modified due in large
part to the IG’s request. 1

Once the former federal employee transitioned to the contract status, the employee continued to
contribute to the agency in a number of critical ways including: assisting in the initial
development of the agency’s internal policy and procedure manual, assisting with the resolution
of HAVA audits, and responding to IG and Congressional inquiries.

The EAC’s policy is consistent with the policies of other federal government agencies.

The United States Department of Agriculture (USDA) provides in their Employee Recognition
Program that all USDA employees are eligible for recognition. This includes all full-time, part-
time and seasonal employees, regardless of appointment type. In addition, former employees
whose contribution occurred when they were employed with USDA and private citizens who
contributed to the mission of USDA or the Federal government as a whole are eligible to receive
recognition. The USDA determined that the Department policy limits the expenditure to no
more than $250. This award was classified and determined to be measured as small/moderate
and limited to benefits that impact the public interest, or a specific small work unit including a
division or region.

1
 In discussion with the Inspector General, his recollection differs from that of the Division Director who oversees
such matters. We have agreed to disagree on this matter.



                                                         18
                                                                                        Appendix 2



The National Institute of Health (NIH) has authorized that all NIH employees, including former
employees, were eligible for awards for contributions in their Employee Awards Program. These
contributions included informal non-monetary gifts issued in recognition to individuals or groups
for their efforts in the form of nominal values of $100 such as mugs, hats, T-shirts, tote-bags, etc.

Based on this analysis, it is determined that the performance of the former federal government
employee/contractor improved government operations at the EAC and therefore the award was
proper. The former employee/contractor was eligible for a nonmonetary award based on the fact
that the contributions made by the individual as a federal government employee were substantial
and benefited the agency’s overall mission. The performance was related to official employment
while at the EAC and continued into exemplary service as a contractor.

The determination is therefore made that the former employee/contractor contributed to the
efficiency, improvement and effectiveness of the organization. The individual’s exemplary
performance had a direct impact on the mission and goal of the agency and results were
achieved.

Taking the totality of the facts into consideration as indicated herein, Management concludes that
recognizing the former federal employee/contractor with a non-monetary award was not
inappropriate.




                                                 19
                                                                      Appendix 3




RECOMMENDATION                                                       Status

OBSERVATION 1: QUANTITY OF ITEMS PURCHASED
1. Ensure justifications for the purchase of items relating to the   Closed
awards program are supported and documented.
2. Ensure the purchase of items for nonmonetary awards is            Closed
reasonably necessary to carry out an authorized function or will
contribute materially to the effective accomplishment of that
function.
3. Implement a quantity check of items prior to placing an order     Closed
to avoid the purchase of excess items
4. Establish limits to the quantity of items that can be retained    Closed
in inventory for award purposes.

OBSERVATION 2: QUANTITY OF SHIRTS AWARDED
1. Consider the reasonableness and appropriateness of a              Closed
nonmonetary award before making it. Determine whether the
item being awarded would cause embarrassment to the
Commission if made public or whether it creates an appearance
issue with the use of federal funds.
2. Ensure procurement and award documentation clearly                Closed
supports the justification for the item—the quantity and value
thereof—being granted as a nonmonetary award.
3. Ensure awards are granted for efforts expended or results         Closed
achieved, and not presented in advance or in anticipation of a
contribution that has yet to occur.
4. Revise the pending policy on incentive awards to require          Closed
distribution of awards only after the notable action
5. Inform employees that they are being awarded and what             Closed
efforts expended or results achieved as an individual, or
member of a group initiated the award.

OBSERVATION 3: APPROPRIATENESS OF AWARD RECIPIENT
1. Seek payment for the shirts from the contractor or the   Closed
employee(s) responsible for the purchase and award.
2. Amend its awards policies and procedures to comply with  Closed
federal requirements by prohibiting awards to contractor
personnel or private citizens. Advise Commission management
and staff of the amendment to ensure awareness and
compliance.




                                            20 

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1225 New York Ave. NW - Suite 1100
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
